C'OCKLE

Legal Briefs E-Mail Address:

 

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923, contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, et al.,
Petitioners,

v.
CITY OF PHILADELPHIA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of June, 2020, send out from
Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF GENERATION JUSTICE AS AMICUS CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
REBECCA MASTERSON ALAN GURA
GENERATION JUSTICE Counsel of Record
3900 E. Camelback Road, GURA PLLC
Suite 300 916 Prince Street, Suite 107
Phoenix, AZ 85018 Alexandria, VA 22314
602.710.1135 703.835.9085

alan@guraplle.com

Counsel for Amicus Curiae

Subscribed and sworn to before me this 3rd day of June, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

: GENERAL AOTARY-State of lobraska
i RENEE J, GOSS
My Comm. Exp. September 6, 2023

    

tees Ouduawh, ale

Affiant

   

 

Notary Public
 

 

 

Mark Leonard Rienzi The Becket Fund for Religious Liberty (202) 955-0095
Counsel of Record 1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036

mrienzi@becketlaw.org

Party name: Sharonell Fulton, et al.

 

Attorneys for Respondents

 

 

Leslie Cooper American Civil Liberties Union (212) 519-7815
Counsel of Record 125 Broad Street
New York, NY 10004

Icooper@aclu.org
Party name: intervenor Support Center for Child Advocates and Philadelphia Family Pride

Neal Kumar Katyal Hogan Lovells US LLP (202) 637-5528
Counsel of Record 555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovelis.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia,
Philadelphia Commission on Human Relations

 
